                              EXECUTIVE SUMMARY
This is the 32 nd semiannual report issued by the Office of Inspector General (OIG) at the
Federal Labor Relations Authority (FLRA). This report, submitted pursuant to section 5 of
the Inspector General Act, summarizes the major activities and accomplishments for the
period of April 1, 2004 to September 30, 2004.

During this reporting period, the FLRA Inspector General conducted two audits, processed
five hotline calls, completed two administrative investigations, completed a 2004 FISMA
evaluation and initiated an internal review of FLRA s procurement of court reporting
services. During this reporting period three security incidents occurred.

The FY 2004 Audit of FLRA Security Programs revealed that the FLRA has material
weaknesses both in information security and physical security. Some of the findings and
recommendations are repetitive from the FY 2000 Audit of Information Security because
FLRA management has not implemented related corrective actions. Management has been
advised that they must focus on the findings and high risks that have been identified and
implement sufficient internal controls to identify, correct, and prevent serious security
occurrences. A FY 2004 Financial Statement audit was also initiated during this reporting
period to assess the FLRA s recently implemented financial statements.

During this reporting period, the FLRA Inspector General provided FLRA management a
complete listing of Inspector General oversight findings and recommendations from 1998
to the current time, highlighting open recommendations and requesting management
response to all previous and current recommendations. No response has been provided.

The oversight activities completed during this reporting period and related
recommendations do not provide immediate savings, and in fact, will actually require
more resources to improve identified material weaknesses, high risks and vulnerable
processes in FLRA s security programs. The oversight activities conducted during this
reporting period also indicated that the FLRA also needs to focus on implementing cost
effective management controls and improving employee and customer human capital
services.
THE FEDERAL LABOR RELATIONS AUTHORITY
The FLRA is an independent agency responsible for directing the labor-management
relations for 1.9 million non-postal Federal employees world-wide, nearly 1.1 million of
whom are exclusively represented in approximately 2,200 bargaining units. The FLRA is
charged by the Federal Service Labor-Management Relations (The Statute), section 7105,
with providing leadership in establishing policies and guidance relating to Federal sector
labor-management relations, resolving disputes arising among Federal agencies and unions
representing Federal employees, and ensuring compliance with the Statute.

The FLRA represents the Federal government s consolidated approach to labor-management
relations. It is three components in one, fulfilling legal statutory responsibilities through its
three primary operational components the Authority, the Office of General Counsel and
the Federal Service Impasses Panel. The FLRA has 7 regional offices and two satellite
offices. The FLRA also provides full staff support to two other organizations the Foreign
Service Impasses Disputes Panel and the Foreign Service Labor Relations Board.

The Authority is a quasi-judicial body with three full-time Members who are appointed for 5-
year terms by the President, with the advice and consent of the Senate. One member is
appointed by the President to serve as Chairman of the Authority and as Chief Executive and
Administrative Officer of the FLRA.

The Authority adjudicates disputes arising under the Statute, deciding cases concerning the
negotiability of collective bargaining agreement proposals, unfair labor practice (ULP)
allegations, representation petitions, and exceptions to grievance arbitration awards. In
addition, consistent with its statutory responsibility to provide leadership in establishing
policies and guidance to participants in the Federal labor-management relations program, and
as part of the Collaboration and Alternative Dispute Resolution (CADRE) Program
described below, the Authority assists Federal agencies and unions in understanding their
rights and responsibilities under the Statute and resolving their disputes through interest-
based problem-solving rather than adjudication.

In addition to the three Member Offices, the Authority component of the FLRA also houses
the Office of Administrative Law Judges, the Collaboration and Alternative Dispute
Resolution Office, the Office of the Solicitor, the Office of the Executive Director, and the
Office of the Inspector General.

Off ic e o f th e Ad m inis trative Law Ju d g e s: The FLRA s Administrative Law Judges (ALJs) are
appointed by the Authority to hear and prepare recommended decisions in cases involving
alleged ULPs. In addition, ALJs issue decisions involving applications for attorney fees and
files pursuant to the Back Pay Act or the Equal Access to Justice Act. The decisions of the
ALJs may be affirmed, modified, or reversed, in whole or in part, by the Authority. If no
exceptions are filed to an ALJ s decisions, the decision is adopted by the Authority and
becomes final and binding on the parties. The ALJs also issue subpoenas as requested by
the parties. While performing their duties, the ALJs engage in settlement efforts throughout


                                                    2
all stages of the process and conduct pre-hearing conferences in all ULP cases.

Off ic e o f Po lic y, Pro je c t & Pe rfo rm anc e Man ag e m e nt: The Office of Policy, Project &
Performance Management is responsible for agency-wide strategic policy and planning,
including the role of chief human capital officer. The office also provides oversight with
respect to FLRA performance management initiatives. The office drafts, reviews, and
approves all agency-wide instructions and policies; oversees the Chairman s and the
Administration s initiatives; and develops agency-wide initiatives, which upon the Chairman s
final approval are implemented through the Office of the Executive Director. The office also
houses the agency s congressional affairs function and serves as the Chairman s primary point
of contact with the Solicitor, Executive Director, EEO Director, and Inspector General.

Co llabo ratio n a nd Alte rnativ e Disp ute Re so lutio n ( CADR) O ffic e : The CADR Office is
responsible for coordinating, supporting, and expanding the unified CADR Program. This
program involves a variety of collaboration and alternative dispute resolution techniques at all
steps of the process, from investigation and prosecution to the adjudication of cases and
resolution of bargaining impasses. The CADR Program also provides facilitation and
training programs to assist labor and management in developing constructive approaches to
conducting their relationship.

Of fic e o f th e So lic ito r: The Office of the Solicitor represents the Authority in court
proceedings before all United States Courts, including the U.S. Supreme Court, U.S. Courts
of Appeals, and Federal District Courts. The office serves as the agency s in-house counsel,
providing legal advice to all FLRA components. The Solicitor is also the Designated Agency
Ethics Officers under the Ethics in Government Act of 1978, as amended.

Of fic e o f th e Exec ut iv e Dire c to r: The Office of the Executive Director provides operational
support to all components of the FLRA, including budget and finance, human resources,
procurement, administrative services, and information resources management and is
responsible for developing and implementing agency-wide initiatives, such as strategic
planning.

Of fic e o f th e In sp e c to r Ge ne ral: The Office of the Inspector General is responsible for
directing and carrying out audits and investigations related to the FLRA Programs and
operations. In addition, the office recommends policies that promote economic, efficient,
and effective agency programs that prevent fraud, waste and abuse. The office is responsible
for keeping the Chair and the Congress fully informed of problems and deficiencies, as well
as the necessity for corrective action. The Office of the Inspector General is mandated by
Public Law 100-504 and the Inspector General Act Amendments of 1988.

Th e Of fic e o f th e Ge ne ral Co un se l: The Office of the General Counsel (OGC) is the
independent investigative and prosecutorial component of the FLRA. The OGC investigates
all ULP charges filed by labor or management and prosecutes all ULP complaints before the
Authority. The General Counsel, who is appointed by the President with the advice and
consent of the Senate for a 5-year term, manages all OGC employees who comprise over 50


                                                     3
percent of the FLRA s staff. Most of the OGC s staff serve in the FLRA s seven regional
offices located in Atlanta, Boston, Chicago, Dallas, Denver, San Francisco, and Washington,
DC. The Office of the General Counsel also operates 2 satellite offices, located at Brea,
California and Cleveland Ohio. The regional and satellite offices investigate and settle or
prosecute ULP claims, actively encouraging the use of collaboration and alternative dispute
resolution at every step, to ensure compliance with all ULP orders issued by the Authority.
The regional offices also receive and process representation petitions, and provide facilitation,
intervention, training, and education services to the parties. The General Counsel reviews all
appeals of a Regional Director s decision not to issue a ULP complaint and establishes
policies and procedures for processing ULP charges.

Th e Fe d e ral Se rvic e Im p as se s P an e l: The Federal Service Impasses Panel (FSIP or the
Panel) is composed of seven part-time Members who are appointed by the President to serve
for a 5-year term. One Member is appointed by the President to serve as the Panel Chair.
The Panel resolves bargaining impasses between Federal agencies and unions representing
Federal employees arising from negotiations over conditions of employment under the
Statute and the Federal Employees Flexible and Compressed Work Schedules Act. If
bargaining between the parties, followed by mediation assistance, proves unsuccessful, the
Panel has the authority to recommend procedures and to take whatever action it deems
necessary to resolve the impasse.

T h e Fo re i g n Se r vic e La b o r R e la tio n s B o ard : The Foreign Service Labor Relations Board
(the Board) was created by the Foreign Service Act of 1980 to administer the labor-
management relations program for Foreign Service employees in the U.S. Information
Agency, the Agency for International Development, and the Departments of State,
Agriculture and Commerce. The Board is composed of three Members, including the
Chairman of the Authority who appoints the other two Members, who serve on a part-time
basis. The Chairman of the Authority also serves as Chairman of the Board. The FLRA
General Counsel acts as General Counsel for the Board, and the Authority staff provides
necessary support to the Board.

T h e F o re i g n S e r vi c e I m p a s s e D is p u t e s P an e l : The Foreign Service Impasse Disputes Panel
(the Disputes Panel) was also created by the Foreign Service Act of 1980. The Disputes
Panel is composed of five part-time Members who are appointed by the Chairman of the
Foreign Service Labor Relations Board (the FLRA Chair). The Disputes Panel resolves
bargaining impasses between Federal agencies and Foreign Service personnel in the U.S.
Information Agency, the Agency for International Development, and the Departments of
State, Agriculture, and Commerce, over conditions of employment under the Foreign Service
Act of 1980. The FSIP staff supports the Disputes Panel.

The FLRA's headquarters is located in Washington, D.C. The FLRA maintains regional
offices in Atlanta, Boston, Chicago, Dallas, Denver, San Francisco, and Washington, D.C.
The FLRA now has 187 full-time equivalents (FTE s ) and had a 2004 budget appropriation
of $29,436,000.



                                                           4
FLRA MISSION STATEMENT
The Federal Labor Relations Authority exercises leadership under the Federal Service Labor-
Management Relations Statute to promote stable, constructive labor relations that contribute
to a more effective Government.

The Federal Labor Relations Authority fulfills its mission by:

%Ï     Enforcing and clarifying the law through sound, timely decisions and policies;
%Ï     Using fast, simple processes to conduct its business;
%Ï     Providing high quality training and education programs, and furnishing effective
       intervention services; and

%Ï     Administering its resources to ensure that services are responsive to the unique needs
       of its customers.

In order to accomplish this mission, the FLRA has established the following four goals:

1.     Provide high quality services that timely resolve disputes in the Federal labor-
       management relations community.

2.     Use and promote alternative methods of resolving and avoiding disputes and provide
       services to enhance labor-management relationships.

3.     Develop, manage and utilize the FLRA s internal systems and processes to meet
       program needs.

4.     Develop, manage and utilize the FLRA s human resources to meet program needs.

OFFICE OF INSPECTOR GENERAL

The FLRA's Office of Inspector General was established pursuant to Public Law 100-504,
the Inspector General Act Amendments of 1988, which amended Pub. L. 95-452, and the
Inspector General Act of 1978. The Inspector General reports directly to the FLRA
Chairman. As set forth in the authorizing legislation, the FLRA Inspector General:

%Ï      Conducts and supervises internal reviews, audits and evaluations of the programs and
        operations of the FLRA;

%Ï      Provides leadership and coordination, and recommends actions to management,
        which: (1) promote economy, efficiency, and effectiveness in agency programs and
        operations; and (2) prevent and detect fraud, waste, abuse, and mismanagement of
        government resources; and

%Ï      Keeps the Chairman, FLRA management, and the Congress fully informed regarding


                                                   5
       problems and deficiencies, as well as the necessity for the progress of corrective
       action.

The Inspector General s Office is currently staffed with one full time Inspector General and
one full time Management Analyst (upward mobility position). When required, the FLRA
Inspector General uses contractor auditors to perform audits. The Office of the Inspector
General had been allocated funding totaling $161,000.00 for FY 2004. Information
concerning the FY 2005 FLRA allocation was not available at the time this report was
created. The FLRA Inspector General submitted a request for an increase in operational
funding in the FLRA Office of Inspector General FY 2005 budget submission. The lack of
staff and increased oversight activities required by law (annual security and financial statement
audits) provide the basis for this request.

OFFICE OF INSPECTOR GENERAL MISSION STATEMENT

The mission of the FLRA Office of Inspector General is to provide FLRA leadership, along
with an independent and objective assessment of the organization s efficiency and
effectiveness. This is accomplished through proactive evaluations of FLRA operational
processes. The Inspector General provides necessary oversight and serves as a catalyst for
improving and maximizing the efficiency and integrity of FLRA programs and operations.
The goal of the Inspector General's work is to maximize the effectiveness of FLRA programs
by evaluating performance and identifying ways to make these programs more efficient and
effective. In addition, the FLRA Inspector General strives to prevent and detect fraud,
waste, abuse, and mismanagement of the FLRA s resources and operations which could
adversely impact the organization s integrity and ability to perform its mission in a timely,
customer responsive manner.

The primary objectives of the Office of Inspector General are as follows:

%Ï      To evaluate the efficiency and effectiveness of FLRA program and resource
        management and identify best practices, as well as causative factors, impeding the
        accomplishment of the FLRA mission.

%Ï      To assist the Chairman and FLRA management in carrying out their responsibilities by
        providing them with objectives and timely information on the conduct of FLRA
        operations, together with the Inspector General s independent analysis, conclusions,
        and recommendations.

%Ï      To use evaluations, internal reviews, and more traditional assessment tools of audits,
        inspections, and investigations, to maximize oversight and strengthen system and
        process controls.

%Ï      To support the Administration and Congress in maximizing Government integrity and
        efficiency and minimizing the occurrence of fraud, waste, abuse, and mismanagement.



                                                   6
                       AUDIT/INTERNAL REVIEW ACTIVITY

During this reporting period the following audit was performed by the FLRA Office of the
Inspector General in compliance with Government auditing standards:

Audit of FLRA s Security Programs                                             Closed

The FY 2004 FLRA Security Program audit revealed that the FLRA s information security
program substantially did not meet the responsibilities required for Federal agencies
stipulated in the Federal Information Security Management Act of 2002 (FISMA), Section
3544. Security weaknesses, as whole, constitute a material weakness. The audit risk
assessment, based on FISMA requirements revealed 14 areas of risk, 9 of which were high
risks. These high risk areas included Systems Development Life Cycle and Change Control,
User Account Control, Segregation of Duties, Information Security Program, Security
Program Plan, Incident Response Plan, Systems Accreditation and Formalized Acceptance by
Management, and Disaster Recovery and Business Continuity.

The Physical Security and Information Technology deficiencies overlapped in several areas
(computer room security, information security policies and Headquarter access). This audit
revealed that the lack of adequate physical security controls over system resources, disruption
or denial of service and damage to sensitive information system assets existed without proper
management accountability. FLRA management has not created Disaster Recovery,
Information Technology Contingency or Continuity of Operations Plans that are fully
developed and implemented to mitigate risks associated with the ensurance of continuity of
support in the event of service disruption. Also, the FLRA does not have policy and
procedures or sufficient internal controls to review the effectiveness of physical access
controls.

This audit also affirmed that the FLRA does not administer security awareness training to its
employees or retain an adequate physical or information technology workforce. Also, the
FLRA has no formalized written change control and systems development life cycle policies
addressing configuration management , acquisition development and the maintenance of
hardware, software and commercial products. Without such guidance, the FLRA risks cost
overruns, rework, and other substantial problems that could lead to the waste of resources.
Findings and recommendations related to this Security Program Audit may be found on
pages 20 and 21 of this report. _

Federal Information Security Management Act (FISMA) Evaluation Closed
On September 13, 2004, The FLRA Inspector General issued the Inspector General s
Evaluation of the FLRA s compliance with FISMA to the Chairman, FLRA to comply with
the Office of Management and Budget s specific instructions for Inspectors General to
independently and objectively provide the results of information security reviews on an
annual basis. The evaluation affirmed that the FLRA has a significant amount of material
weaknesses and high risks in several information security areas. Part of the cause of several
high risks and material weaknesses is that FLRA management has not sufficiently addressed


                                                   7
findings and corrective actions recommended by the FLRA Inspector General and previous
contractors and consultants. Also, the lack of a sufficient and qualified staff, the lack of
separation of duties of the Chief Information Officer who has served as the Acting Director
of the Information Resource Division for over a year and one half and the lack of security
training have created high risk areas of concerns. Also, the FLRA s network infrastructure
has not yet been accredited or certified based on the acceptance of risks identified within the
systems certification process. Other significant risks pertain to the lack of security
information policy, the lack of Contingency Planning and Continuity of Operations for
information technology systems as well as physical and homeland security.

The FY 2004 FLRA Inspector General Evaluation reported that the FLRA was not in
compliance with FISMA and that over this next year, FLRA management must focus on
improving its computer information security technology, create agency-wide policies and a
POA&M related to the FLRA s mission and information technology function, implement a
systems security policy and contingency plan, provide security training for its employees,
improve its filter and patch management to reduce penetration risks, and provide sufficient
resources to eliminate existing material information security weaknesses and high risk issues.

Audit of FLRA s Financial Statements                                           Open

FY 2004 is the first year that the FLRA has implemented and maintained financial statements.
The FLRA received support from OMB for its request for a waiver in FY 2003. The
Financial Statement Audit is currently in process. A comprehensive baseline audit is being
conducted by contracted auditors to assess the FLRA s compliance with Federal Accounting
Standards, the meaningfulness and use of financial statements, the use of funds to support
FLRA s operations and capital expenditures and whether the FLRA s financial management
systems comply with the Federal financial management system requirements and, Federal
accounting standards. It also will address FLRA s compliance with US Government Standard
General Ledger at the transaction level, whether FLRA s internal controls are sufficient and
in compliance with OMB Bulletin No. 01-02 and OMB Circular A-123 and if the FLRA s
financial statement system is in compliance with the Federal Financial Management
Compliance Act and Accountability of Tax Dollars Act.

Internal Review


Internal Review of FLRA s Procurement of Court Reporting Services              Open

During this reporting period, the FLRA Inspector General began an internal review of
FLRA s Procurement of Court Reporting Services which pertains to recording and
transcription services.
Security Issues

During this reporting issues, the FLRA had three security issues involving theft and
threatening phone calls.


                                                   8
1. On March 17, 2004 a theft of government property occurred at the FLRA Atlanta
Regional Office. The Atlanta Regional Office had been notified by their building
management that there had been several break ins over the last few weeks with laptop
computers being targeted. The Atlanta Regional Office s rear door was pried open at the
locks edge and all individual locked pedestal file drawers were forced open by some sort of
tool. Three laptop computers, two overnight laptop storage cases and 3 power cords were
stolen and some property damage occurred as well. The FLRA contacted the Atlanta Region
Federal Protective Service, Atlanta Police Department and Colomade Properties (building
management). The Federal Protective Service unsuccessfully attempted to obtain fingerprints
from the damaged areas. The Atlanta Regional Office was advised to bolt the back door
from the inside to prevent a reoccurrence.

2. On June 23, 2004, the FLRA Boston Regional Director contacted a Federal employee who
had filed an unfair labor practice charge to inform the party that the case was being dismissed
because it did not pertain to the FLRA statute. The party became very upset, degraded her
agency and union, and stated that the only choice she had was to handle it herself and kill
the people who were destroying her. The FLRA Inspector General contacted the
appropriate people in the subject federal agency and federal union where the employee was
employed as well as the FLRA Security Officer.

3. On July 23, 2004, an FLRA Federal Services Impasse Panel senior attorney contacted the
Inspector General regarding a threatening call she had received on her phone. The threat was
to kill the recipient of the phone call. The Inspector General contacted the Director,
Administrative Services Division who contacted the Federal Protective Service.

Debt Collection

During this reporting period, the FLRA collected $247.33 through the National Business
Center which has taken over the debt collection for payroll issues on behalf of the FLRA.
The current remaining payroll debt is $3,041.56.00

Inspector General Website

During this reporting period, the Office of the Inspector General submitted the 31st Semi
Annual Report and completed reports to be placed on the Inspector General website. FLRA
management has not yet responded to this action request.




                                                  9
Continuing Education

During this reporting period, the FLRA Inspector General attended:

The Internal Auditors Audit Conference
Inspector General Conference

Presidential Council of Integrity and Efficiency/Executive Council of Integrity and
Efficiency (PCIE/ECIE)

The FLRA Inspector General continues to participate in the Executive Council of Integrity
and Efficiency and PCIE/ECIE activities.

Investigation Activity

During this reporting period, the FLRA Inspector General received one complaint which
required a full administrative investigation. Investigation 2004-I-05 received at the end of the
last reporting period was completed during this reporting period and issued to the Chairman,
FLRA on August 5, 2004. Investigation 2004-06 is currently on hold awaiting for the
Authority to make a decision on a amicus brief filed by the complainant.



       Case No.                   Subject                     Date                     Status
 2004-I-01                 FLRA D enver              October 16, 2004          Contacted FPS,
                           Regional Office                                     Denver 10/16/03
                           received threaten-
                           ing letter from
                           former Federal
                           employee who
                           has filed a ULP.
 2004-I-02                 Federal worker            November 2, 2003          FLRA IG
                           alleges improper                                    Investigtion
                           investigation of                                    Closed
                           ULPs by the                                         January 2004
                           FLRA S an
                           Francisco
                           Regional Office




                                                  10
    Case No.        Subject               Date             Status
2004-I-04      Former contractor    March 31, 2004   FLRA Inspector
               alleges                               General has
               improper handling                     placed o n hold.
               of contr act.                         Contractor has
                                                     filed claim.
2004-I-05      FLRA emp loyee       March 25, 2005   FLRA Inspector
               alleges                               Gener al
               management                            Closed
               abuse and                             August 4, 2004.
               improper
               contracting.




                                   11
Hotline Calls

During this reporting period, the FLRA Inspector General processed six Hotline Calls.

           Case No.                           Subject                   Date            Status
 2004-H-01                        Former TVA employee               10-03- 03       Closed;
                                  alleges that TVA is                               Forwarded
                                  participating in illegal                          to TVA
                                  activities such as pay fraud,                     Inspector
                                  and mismanagement.                                General on
                                                                                    10-8-03
 2004-H-02                        Former FAA employee               10-09-03        Closed:
                                  alleges improper actions by                       Referred to
                                  the Union representative                          Department
                                  which have affected 40                            of
                                  employees negatively. ULP                         Transportati
                                  and Appeal negated because                        on Inspector
                                  of time element.                                  General on
                                                                                    10 -09-03



 2004-H-03                        Postal service employee           10-14-03        Closed:
                                  alleges mishandling of                            Referred to
                                  paperwork by Postal Service                       US Postal
                                  and Department of Labor                           Service
                                  (NF)                                              Inspector
                                                                                    General
                                                                                    10-14-03
 2004-H-04                         Private sector employee (no      11-17-03        Closed, no
                                  union) alleges mistreatment                       file.
                                  by management                                     Referred to
                                                                                    Department
                                                                                    of Labor
                                                                                    Inspector
                                                                                    General
 2004-H-05                        Dept. of Justice U.S.Closed, no    01-12-04       Referred to
                                  file Probation former                             employee
                                  termination because of age &                      alleges EEO
                                  salary.




                                                 12
           Case No.              Subject                   Date      Status
Case No.                                               Date       Status
                      Subject
2004-H-06             Former Department of State       01-15-04   Closed
                      employee alleges whistleblower              Referred to
                      activities by                               Office of
                      e-mails to FLRA presidential                Special
                      appointees,no file and senior               Counsel
                      management.




                                   13
                     SPECIFIC REPORTING REQUIREMENTS OF
                THE INSPECTOR GENERAL ACT OF 1978, AS AMENDED

TheThe following provides the report pageThe following provides the report page references containing the Inspecto
toto specific reportingto specific reporting requirements set forth in certain sectionsto specific reporting requirements
amended.

Section 4(a)(2) Review of legislation and regulations.                         None

Section 5(a)(1) Significant problems, abuses, and deficiencies.                None

Section 5(a)(2) Recommendations with respect to significant problems,          Page 20
                    abuses, or deficiencies.

Section 5(a)(3) Prior significant recommendations on which corrective          Page 18
                    action has not been completed.

Section 5(a)(4) Matters referred to prosecutorial authorities.                         None

Section 5(a)(5) Summary of instances where information was refused.          None

Section 5(a)(6) List of audit/internal review activity.                                Page 7

Section 5(a)(7) Summary of significant reports.                                 Page 8,9

Section 5(a)(8) Statistical table of reports with questioned costs.          None

Section 5(a)(9) Statistical table of reports with recommendations            None
                     that funds be put to better use.

Section 5(a)(10) Summary of previous reports without
                    management decisions.

Section 5(a)(11) Significant management decision revised during             None
                      this period.

Section 5(a)(12) Significant management decision with which the              None
                      Inspector General disagrees.




                                                  14
       TABLE I: INSPECTOR GENERAL AUDIT REPORTS WITH
                      QUESTIONED COSTS

                                                                     DOLLAR VALUE
INSPECTOR GENERAL                                   NUMBER
REPORTS                                                OF
WITH QUESTIONED COSTS                               REPORT S
                                                               Questioned
                                                               Costs

A.      For which no management decision 0                     0
has been made by the commencement of
the reporting period.

B.      Which were issued during the            0              0
reporting period.

C.    For which a management decision           0              0
was made during the reporting period.

        (I) dollar value of disallowed costs.
                                                0              0
(ii) dollar value of costs not disallowed.

D.      For which no management decision 0                     0
has been made by the end of the reporting
period.
                                          0                    0




                                                15
TABLE II: INSPECTOR GENERAL AUDIT REPORTS WITH
RECOM MEND ATIONS T HAT FUN DS BE PU T TO BE TTER U SE

       INSPECTOR GENERAL REPORTS                     NUMBER    DOLLAR VALUE
      WITH RECOMMENDATIONS THAT                         OF
       FUNDS BE PUT TO BETTER USE                    REPORTS


 A.    For which no management decision has been        0           0
 made by the commencement of the reporting period.

 B.      Which were issued during the reporting
 period.                                                0           0

 C.      For which a management decision was made
 during the reporting period.                           0           0

      (i) dollar value of recommendations
 that were agreed to by management.                     0           0

      (ii) dollar value of recommendations
 that were not agreed to by management.                 0           0

 D.      For which no management decision was made
 by the end of the reporting period.                    0           0




                                              16
                              FLRA INSPECTOR GENERAL
                               Oversight Activities Summary
                              April 1, 2004- September 30, 2004
Subject                                                                    Status

Internal Review of FLRA s Procurement of Court Reporting Services   In process

Audit of FLRA Security Programs                                     Completed

Audit of FLRA Financial Statements                                         In process

Evaluation of FLRA Compliance with FISMA Act                               Completed




                                              17
                              FLRA INSPECTOR GENERAL
                            CORRECTIVE ACTION SUMMARY
                              April 1, 2004 - September 30, 2004


New Corrective Actions                       14

Open Corrective Actions Carried Over         83

Total Actions Closed This Period       1

Total to be Carried Over                     97




                                             18
REPORT SIX MONTH PERIOD EN DING SEPTEMBER 30, 2004


Report        Date         Recommendation

2004-I-05     8/4/04       1. FLRA should focus on creating and/or updating policy for their
                           procurement operations and providing this policy to contracting
                           employees so that the subject employees are properly informed of
                            changes. Contract file information should be standarized and include
                            all submitted proposals with documented evaluations. Task orders
                           written by FLRA mangers should include evaluation criteria by which
                           contractors will be evaluated.

                           2. The FLRA Contracting Officer needs to understand that in spite of
                            his authority and independence to handle claims and make final
                            decisions, FLRA management should be informed of contract related
                            problems and claims that have been filed against the Agency prior to
                            processing, especially when the alternative dispute resolution
                            process is to be used.

                           3. FLRA management should focus more on human capital and
                            customer oriented relationships. Also, FLRA management should be
                            aware of and support appropriate alternative dispute resolutions for
                            claims as they do for unfair labor practice arbitration cases which
                           provide greater satisfaction to the filing party,innovative methods of
                           resolving disputes and greater efficiency in achieving settlements.

                           4. FLRA management should ensure that senior appointed managers
                            have knowledge and/or are provided with necessary training in the
                            programs they are responsible for managing.




                                        19
Report           Date      Recommendation

Security Audit   9/30/04   1. Chief Information Officer should develop and maintain:
                           a. A visitor s log that all data center visitors are required to sign upon
                            arrivaland document.
                           b. An emergency contact list. Closed 9/30/04

                           2. The Director of the Administrative Services Division (ASD):
                           a. Work with building owners and maintenance personnel to ensure
                           that the parking garage exterior doors remain locked and secured.
                           b. Install door locks on all interior door.

                           3. ASD develop effective policies for managing Kastle Keys and direct
                            ASD security personnel to implement procedures in accord with the
                            policies adopted.

                           4. The CIO should:
                           a. Fully develop disaster reco very, IT contingen cy, business continuity,
                           and continuity of operations plans.
                           b. Provide training to enable personnel to effectively implement all
                           plans, and require periodic retraining.
                           c. After each plan is implemented, conduct and document testing to
                            ensure that each plan is responsive, periodically reevaluate plans,
                            and keep plans current.

                           5. The CIO should:
                           a. Perform a C & A review in accordance with NIST standards and
                            authorize the general support system for processing.
                           b. Ensure that a management official authorizes in writing the use of
                            each general support system based on an acceptance of risks
                           identified wit hin the system certificatio n process as de scribed by NIST.

                           6. The CIO should ensure that staff members adhere to a
                            documented policies and procedures for performing backups of
                           network file and mail servers.

                           7. The CIO should develop a program to provide annual security
                           awarenes s traini ng to all FLRA empl oyees in a ccordan ce with OMB
                           requirements. In addition, the FLRA should develop proper
                           procedures to accurately assess and report on the program s level of
                            attendance and effectiveness.

                           8. The CIO should develop a complete Security Program Plan, arrange
                            for appropriate personnel to review it, revise the plan accordingly, and
                            obtainapproval by cognizant executive management.

                           9. The CIO should develop, document, and implement an incident
                            response plan consistent with NIST and OMB criteria.

                           10. The CIO should:
                           a. Take immediate action to ensure timely development and
                            implementation of policies and procedures necessary to establish
                            and support FLRA s information security program.
                           b. Develop and implement policies and procedures to track, evaluate,
                            and monitor FLRA s information and information systems security
                            program in accordance with OMB A-130, Appendix III, and ensure
                            proper and timely reporting to OMB and Congress.




                                         20
Report   Date   Recommendation

                11. The CIO should:
                a. Develop policies and procedures requiring that patches be properly
                 tested in a test environment before being placed into production.
                b. Develop a test lab to adequately test patches.
                c. Provide training to individuals to ensure that critical functions and
                 activities can be performed by multiple personnel.

                12. The CIO should:
                a. Develop and implement a formal SDLC methodology based on
                 NIST guidance and ensure the policy at a minimum addresses the
                 following elements:
                            %ÏSensitivity of data to be processed in the system.
                         %ÏResources required for adequately securing the system.
                        %ÏInput from the equivalent of an Investment Review Board.
                       %ÏAuthorizations for software modification documentation and
                                                maintenance.
                      %ÏBudget requests to include security resources for the system.
                          %ÏSecurity controls consistent with and integral to senior
                                         management s standards.
                   %ÏSecurity requirements to be included in solicitation documentation.
                  b. Develop and implement a formal change control policy outlining
                 the procedures needed to ensure that system configuration changes
                are properly documented, authorized, approved, and tested before
                being moved into production or implemented.

                13. The CIO should:
                a. Suspend access or implement adequate procedures to mitigate
                risks associated with the CIO s access privileges to the network
                domain servers and local account passwords and follow through with
                the Windows 2000 migration and rollout initiative to ensure that current
                passwords that have been compromised due to the departure of the
                network manager do not continue to present the agency with a major
                security risk.
                b. Designate an SSO, ensure that a separation of duties exists among
                security personnel who administer the access control function, and
                assign necessary duties for the general support system and IT
                administer i nfrastructur e security.
                c. Separate duties between user account maintenance and exception
                 report/audit trail queries for the general support system and firewall.

                14. The CIO should:
                a. Develop policies and procedures requiring periodic reviews of
                users on the network operating system as well as their network
                privileges to ensure appropriate security over user access is
                controlled.
                b. Analyze generic accounts currently active on the network operating
                system to ensure that they are appropriate and that account access is
                controlled and monitored.




                              21
                                           Definitions

Action

Completion by management of either all actions necessary to implement report
recommendations or a management decision that determines no action is necessary.

Funds Be Put T o Better Use

The amount of savings estimated by the Inspector General that could be obtained by
implementing report recommendations relating to more efficiency and effectiveness of
programs and operations.

Management Decision

A final decision made by management in response to audit report recommendations that
may include actions concluded to be necessary or a determination that no action is
necessary.

Managem ent Letter

This document brings to the attention of management any of a broad range of issues and
subjects which should be addressed by management, but do not require formal audit or
investigation. Management letters are generally unplanned and are issued to report on
situations found in conjunction with an on-going or completed audit or investigation.
These letters may also be used to expand on previously issued audit report
recommendations.

Questione d Costs

Expenditures questioned by the Inspector General are usually due to the following:

Unsupported costs, which involve inadequate documentation;

Disallowed costs, which involve an alleged violation concurred with by
Managements Decision of a law, regulation, grant, contract, or another agreement; or

Unnecessary or unreasonable costs which involve unnecessary or wasteful
spending.


             REPORT FRAUD , WASTE, ABUSE, AND MISMANAGEMENT



                                                22
               TO

THE FEDERAL LABOR RELATIONS AUTHORITY

   OFFICE OF THE INSPECTOR GENERAL

                 HOTLINE

        1-800-331-3572 (24 hr. service)

                202-218-7744

                  or write to

                    FLRA

         Office of Inspector General

             1400 K Street, N.W .

                  Suite 240

           Washington, D.C. 20424




                      23
